APPENDIX

i
APPENDIX
TABLE OF CONTENTS
Appendix A Order and Judgment in the United
States Court of Appeals For the
Eighth Circuit
(March 21, 2019) . . . . . . . . . . . . . . App. 1
Appendix B Amended Memorandum Opinion and
Order in the United States District
Court, District of Minnesota
(January 31, 2018) . . . . . . . . . . . App. 17
Appendix C Order in the United States Court of
Appeals For the Eighth Circuit
(May 16, 2019) . . . . . . . . . . . . . . App. 55
Appendix D Order in the United States Court of
Appeals For the Eighth Circuit
(June 4, 2019) . . . . . . . . . . . . . . . App. 57
Appendix E Mandate in the United States Court of
Appeals For the Eighth Circuit
(June 5, 2019) . . . . . . . . . . . . . . . App. 59
Appendix F Vicki Hansen Declaration
(December 12, 2017) . . . . . . . . . . App. 61

App. 1

APPENDIX A
United States Court of Appeals
For the Eighth Circuit
No. 18-1006
No. 18-1294
[Filed March 21, 2019]
__________________________________________
Augustine Pacheco; Vicki Hansen,
)
for themselves and others similarly-situated )
)
Plaintiffs - Appellees )
)
v.
)
)
Honeywell International Inc.
)
)
Defendant - Appellant )
_________________________________________ )
Appeals from United States District Court
for the District of Minnesota - Minneapolis
____________________________________
Submitted: December 12, 2018
Filed: March 21, 2019
____________________________________
Before LOKEN, MELLOY, and ERICKSON, Circuit
Judges.
____________________________________

App. 2
LOKEN, Circuit Judge.
This is a class action filed in November 2017 by
former Minnesota employees of Honeywell
International Inc. who retired before age 65 during the
terms of Honeywell’s 2007 and 2010 collective
bargaining agreements (CBAs) with Local 1145 of the
International Brotherhood of Teamsters. Plaintiffs
alleged that Honeywell’s announced plan to terminate
early retiree healthcare benefits at the end of 2017
breached the CBAs and violated the Employee
Retirement Income Security Act of 1974 (ERISA), 29
U.S.C. §§ 1001 et. seq, because those healthcare
benefits vested when each class member retired.1 On
December 29, 2017, and January 31, 2018, the district
court granted Plaintiffs a provisional and then a final
preliminary injunction, concluding they had a “fair
chance of prevailing” on their claims of vested
healthcare benefits. Honeywell appeals these orders.
On February 20, 2018, the Supreme Court issued its
decision in CNH Indus. N.V. v. Reese, 138 S. Ct. 761
(2018). We agree with the Sixth Circuit that Reese is
controlling and conclude that, under Reese, Plaintiffs’
retiree healthcare benefits are not vested as a matter
of law. Therefore, we reverse.
I.
“When collective-bargaining agreements create
pension or welfare benefits plans, those plans are
1

“A ‘vested right’ is a right that so completely and definitely
belongs to a person that it cannot be impaired or taken away
without the person’s consent.” Maytag Corp. v. UAW, 687 F.3d
1076, 1084 n.5 (8th Cir. 2012) (cleaned up).

App. 3
subject to rules established in ERISA.” M & G
Polymers USA, LLC v. Tackett, 135 S. Ct. 926, 933
(2015). ERISA treats pension plans and welfare benefit
plans differently. The statute “imposes elaborate
minimum funding and vesting standards for pension
plans,” but it “explicitly exempts welfare benefits plans
from those rules,” leaving employers generally free “to
adopt, modify, or terminate welfare plans” “for any
reason at any time.” Id. (citation omitted). However,
though welfare benefits “do not automatically vest as a
matter of law” under ERISA, employers and unions
may contractually agree to extend welfare benefits
beyond the expiration of a CBA. Anderson v. Alpha
Portland Indus., Inc., 836 F.2d 1512, 1516 (8th Cir.
1988). Whether the parties to a CBA intended that the
employer would provide vested welfare benefits is a
question of contract interpretation. Id.
In UAW v. Yard-Man, Inc., the Sixth Circuit held
that, when an employer and union “contract for
benefits which accrue upon achievement of retiree
status, there is an inference that the parties likely
intended those benefits to continue as long as the
beneficiary remains a retiree.” 716 F.2d 1476, 1482 (6th
Cir. 1983), cert. denied, 465 U.S. 1007 (1984). Like
most other circuits, we never adopted the Yard-Man
inference; indeed, we explicitly rejected it as contrary
to the statutory exemption of welfare benefits from
ERISA’s vesting requirements. See Anderson, 836 F.2d
at 1517. Rather, we have consistently held that “[t]he
absence of any explicit vesting language in [a CBA] is
strong evidence of the parties’ intent to limit retiree
benefits to the term of the [CBA].” John Morrell & Co.
v. UFCW, 37 F.3d 1302, 1307 (8th Cir. 1994); see

App. 4
Crown Cork & Seal Co. v. AFL-CIO, 501 F.3d 912, 91718 (8th Cir. 2007); Anderson, 836 F.2d at 1517-18.
In Tackett, the Supreme Court expressly rejected
the Yard-Man inference “as inconsistent with ordinary
principles of contract law.” 135 S. Ct. at 937. Yard-Man
and later Sixth Circuit decisions erred in “refus[ing] to
apply general durational clauses to provisions
governing retiree benefits,” the Court explained,
“requiring a contract to include a specific durational
clause for retiree health care benefits to prevent
vesting.” Id. at 936. “Similarly, the Court of Appeals
failed to consider the traditional principle that
contractual obligations will cease, in the ordinary
course, upon termination of the bargaining agreement.”
Id. at 937 (quotation omitted). Applying this traditional
principle, “when a contract is silent as to the duration
of retiree benefits, a court may not infer that the
parties intended those benefits to vest for life.” Id. The
Court reiterated these principles in Reese, 138 S. Ct. at
766. Thus, our task in resolving this appeal is to
interpret the retiree healthcare benefit provisions of
Honeywell’s 2007 and 2010 CBAs, applying the
ordinary contract principles articulated in Tackett and
Reese.
II.
The retiree healthcare benefit provisions at issue
are found in Article 24 of the 2007 and 2010 CBAs.
Section 1 provided, “The following insurance and
benefit plans . . . shall be implemented and maintained
as specified by the time periods outlined below for the
duration of this agreement.” (Emphasis added.)
Section 2 provided that healthcare benefits for those

App. 5
who retired under age 65 prior to May 1, 2007 “will be
provided . . . as negotiated under the previous [CBA].”
Sections 3 to 6 specified healthcare benefit and benefit
contribution levels. Section 8 specified Pension Benefit
levels. Sections 9 to 12 provided savings plan and
insurance benefits. Section 7, which set forth the new
“Retiree Health Care (Pre 65 only)” benefits at issue on
appeal, provided:
The subject of health care benefits for
existing and future retirees, their dependents
and surviving spouses . . . will be a mandatory
subject of bargaining for all future collective
bargaining agreement negotiations.
For all retirees prior to May 1, 2007, the
Company will provide healthcare benefits as per
the prior collective bargaining agreement,
without regard to the limit described below.
[F]or all retirees after April 30, 2007 the
limit upon the Company’s contribution for post
retirement health benefits shall be 2.0 times the
2007 cost of Local 1145 retiree medical.
The maximum annual dollar amount
contributed by Honeywell for post April 30, 2007
retirees, their dependants, and surviving
spouses will be limited to $20,304 for single
coverage and $40,608 for family coverage.
The above limit on Company retiree health
care contributions will not apply to any year
prior to calendar year 2011.

App. 6
The Company does not provide healthcare
benefits for Local 1145 retirees after age 65.
Article 24, Section 7, of the 2010 CBA contained the
same retiree healthcare benefit provisions except that
the first paragraph was omitted and a “Special
Retirement Program” was added:
Effective February 1, 2010, for each employee
who terminates and retires on or after
February 1, 2010 -- Honeywell will not
contribute any amount towards the annual
retiree medical premium except under the
following “Special Retirement Program”
provision:
Employees who provide the Company with at
least four (4) months advance written notice of
his or her irrevocable decision to retire on a date
certain between August 1, 2010 and February 1,
2013 and are not terminated for cause will be
eligible for retiree medical coverage under the
1145 retiree medical plan with respect to which
Honeywell will contribute towards the annual
retiree medical premium.
The plan design for retiree medical for any
employee retiring after February 1, 2010, will be
the same as the 1145 active medical plan design
as such plan changes from time to time.
The 2007 and 2010 CBAs also contained
substantially identical general duration provisions. We
set forth the 2010 CBA provision:

App. 7
Section 1. This Agreement shall become
effective February 1, 2010 and shall remain in
full force and effect up to midnight January 31,
2013. This Agreement shall remain in full force
and effect from year to year thereafter unless
notice of intention to terminate or modify this
Agreement is given at least sixty (60) days prior
to February 1, 2013 or any anniversary date
thereafter. Notice to modify shall reopen the
Agreement only with respect to the terms
designated in such notice. . . .
Section 2. The parties agree that during the
term of this Agreement, economic issues
including fringe benefits shall not be subject for
collective bargaining negotiations between the
parties.
The summary plan descriptions (SPDs) required by
ERISA stated that Honeywell reserved the right to
eliminate or modify healthcare benefits at any time.
The 2013 CBA continued healthcare benefits for
past retirees but stated that employees who retired
after the 2013 CBA took effect would “pay the full
unsubsidized cost of retiree healthcare.” On
February 1, 2017, Honeywell and the union signed a
Memorandum of Agreement allowing Honeywell to
“terminate retiree healthcare benefits for current
retirees no sooner than December 31, 2017 with at
least 6 months notice to retirees prior to termination.”2
Honeywell gave retirees that notice in March 2017.
2

Consistent with this Memorandum, Article 24 of the 2017 CBA
eliminated the prior Retiree Health Care (Pre 65 only) provisions.

App. 8
This class action lawsuit was then filed on behalf of
retirees who retired while the 2007 and 2010 CBAs
were in effect.
The district court granted Plaintiffs a preliminary
injunction enjoining Honeywell from terminating
retiree healthcare benefits prior to adjudication of
Plaintiffs’ claims on the merits. In granting relief, the
court properly analyzed the four factors set out in
Dataphase Sys., Inc. v. CL Sys., Inc., 640 F.2d 109, 114
(8th Cir. 1981) (en banc) -- irreparable injury,
likelihood of success on the merits, balance of harms,
and the public interest in granting or denying a
preliminary injunction. However, as we conclude the
2007 and 2010 CBAs did not grant Plaintiffs vested
early retiree healthcare benefits, an issue of contract
interpretation we review de novo, that is the only
Dataphase factor we need address. See Mid-Am. Real
Estate Co. v. Iowa Realty Co., 406 F.3d 969, 972 (8th
Cir. 2005) (“[A]n injunction cannot issue if there is no
chance of success on the merits.”).
In concluding that Plaintiffs have a sufficient
likelihood of success on the merits, the district court
ruled in the alternative (i) that the plain language of
the CBAs unambiguously demonstrates that Honeywell
and the union intended to confer vested pre-65 retiree
healthcare benefits from an employee’s early
retirement until age 65, and (ii) even if the CBA
language is ambiguous, plaintiffs submitted extrinsic
evidence that sufficiently supports finding intent to
vest those benefits. But if we conclude, as we do in this
case, that an ERISA-governed document is
unambiguous, “we examine no extrinsic evidence.”

App. 9
Hughes v. 3M Retiree Med. Plan, 281 F.3d 786, 793
(8th Cir. 2002). Thus, we do not reach the court’s
alternative ground because the CBAs cannot
“reasonably be read as vesting health care benefits”
until Plaintiffs reach age 65. Reese, 138 S. Ct. at 765.
In Reese, the Supreme Court considered an expired
CBA that “contained a general durational clause that
applied to all benefits,” and “[n]o provision specifying
that the health care benefits were subject to a different
durational clause.” 138 S. Ct. at 766. The Court held
that the retirement health care benefits were not
vested as a matter of law because “the only reasonable
interpretation of the [CBA] is that the health care
benefits expired when the [CBA] expired.” Id. Plaintiffs
properly note that lifetime retirement healthcare
benefits were at issue in Reese, whereas they seek
vested benefits of a lesser duration, to age 65. However,
two weeks after the decision in Reese, the Sixth Circuit
took up this issue in Cooper v. Honeywell Int’l, Inc.,
and held that employees who retired at a Honeywell
plant in Michigan under a CBA providing that
“[r]etirees under age 65 . . . will continue to be covered
under the [applicable Medical] Plan, until age 65” did
not receive vested benefits. 884 F.3d 612, 614 (6th Cir.
2018). The court applied Reese’s command “that
general durational clauses should dictate when benefits
expire, unless an alternative end date is provided,” id.
at 618, and held that this CBA unambiguously did not
provide vested retiree healthcare benefits:
A promise to continue providing benefits in a
CBA -- whether that promise is left open-ended,
or whether, as here, it has a specific terminus --

App. 10
does not by itself vest those benefits in retirees
beyond the CBA’s expiration. All it does is
(1) provide a guarantee of those benefits while
the CBA is in effect and (2) provide for the
expiration of those benefits even before the CBA
itself expires. . . . That language also protects
retirees by ensuring Honeywell cannot
prematurely terminate benefits for eligible,
under-age-65 retirees.
Id. at 619-20.
We agree with the Sixth Circuit’s analysis in
Cooper. However, that does not end the inquiry in this
case because the district court properly focused on
specific language in the 2007 and 2010 CBAs. The court
concluded that Article 24, Section 7, of the 2007 CBA
was “sufficiently specific in duration” to overcome the
CBA’s general durational clause because it limited
Honeywell’s “retiree health care contributions”
beginning in calendar year 2011, after the three-year
contract expired in 2010. Likewise, the court concluded
that the Special Retirement Program in Section 7 of the
2010 CBA “constituted an express promise of specific
duration” because it provided that employees who
retired “between August 1, 2010 and February 1, 2013”
were eligible for retiree medical coverage, and
January 31, 2013 was “technically, the last day of the
term of the agreement.”
We cannot agree that these specific provisions are
a sufficient basis to disregard the Supreme Court’s
analysis of durational clauses in Tackett and Reese.
First, the district court considered only the general
durational clauses in both CBAs. It disregarded the

App. 11
specific durational clause in Article 24, Section 1, that
specifically applied to the retiree healthcare benefits in
Section 7. In Tackett, the Supreme Court criticized
Sixth Circuit decisions for “requiring a contract to
include a specific durational clause for retiree health
care benefits to prevent vesting.” 135 S. Ct. at 936.
Here, we are interpreting CBAs that included both a
general and a specific durational clause. “Read in
tandem, these two [durational] clauses unambiguously
promise healthcare benefits [for] the ‘duration’ of the
agreement.” Watkins v. Honeywell Int’l Inc., 875 F.3d
321, 326 (6th Cir. 2017).
Second, we disagree with the district court’s
conclusion that Section 7 unambiguously reflected an
intent to confer vested retiree healthcare benefits. The
provisions noted by the district court must also be read
in the context of the CBAs’ general durational clauses,
which provided (i) that each CBA “shall remain in full
force and effect from year to year” after its initial
expiration date unless one party gives notice of its
intent to terminate or modify the CBA, and (ii) that
“issues including fringe benefits shall not be subject for
collective bargaining” during the term of the CBA.
Reading these contractual provisions as a whole,
putting a limit on Honeywell’s retiree benefit
contributions beginning in 2011 did not reflect an
intent to provide vested benefits after the 2007 CBA
expired. Rather, it put in place a collectively bargained
limit that would apply after the initial three-year term
until the CBA expired because one party gave timely
notice of intent to modify. Even then, the limit would
continue in the modified CBA if the notice to modify did
not include that provision, as happened in the 2010

App. 12
CBA. Likewise, the provision in the Special Retirement
Program in Section 7 of the 2010 CBA making
employees who retired “between August 1, 2010 and
February 1, 2013” eligible for retiree healthcare
benefits did not reflect an intent to provide vested
benefits beyond the term of the CBA. It simply
specified the benefits that would continue to be paid if
the CBA remained in effect after January 31, 2013, the
end of its three-year term, because neither party gave
notice of intent to modify.
In addition to the general and specific durational
clauses, properly construed under Tackett and Reese,
there are other provisions in the 2007 and 2010 CBAs
that confirm an unambiguous intent not to confer
vested retiree healthcare benefits. First, the SPDs that
accompanied the CBAs reserved for Honeywell “the
right to terminate the Plan, or any portion of the Plan,
at any time and for any reason except as limited by the
provisions of any applicable Federal or State law or the
provisions of a written [CBA].” “We have repeatedly
held that an unambiguous reservation-of-rights
provision is sufficient without more to defeat a claim
that retirement welfare plan benefits are vested.”
Maytag, 687 F.3d at 1085 (citations omitted).
Consistent with ERISA, the CBAs referred both
employees and retirees to the SPDs for details
regarding the Healthcare Plan.
Second, both the 2007 and 2010 CBAs explicitly
extended healthcare benefits for past retirees. As the
Sixth Circuit explained in Cooper, “if a promise that
retirees will continue to be covered until age 65 vested
those benefits -- notwithstanding a CBA’s intervening

App. 13
expiration -- then why would each successive CBA need
to repeat the same promise? . . . . The only reasonable
inference, of course, is that the parties did not believe
this language created a vested right to lifetime
healthcare benefits and thus had to include it in each
new CBA.” 884 F.3d at 620 (citation omitted); see
Morrell, 37 F.3d at 1307 (providing “continued health
benefits for past retirees is evidence that prior benefits
were not vested”).
Third, Article 24 of the 2007 CBA explicitly made
early retiree healthcare benefits a mandatory subject
of collective bargaining, suggesting that these benefits
were subject to negotiation, not inalterably fixed. Cf.
Tackett, 135 S. Ct. at 936. Thereafter, Honeywell and
the union negotiated modifications to those benefits in
the 2010 and 2013 CBAs, with no objection that such
changes violated vested rights. “[T]he fact that
modifications were routinely negotiated is
fundamentally inconsistent with the notion that any
retirement health benefits were ever vested.” Morrell,
37 F.3d at 1307.
Finally, the lack of explicit vesting language in the
CBAs and their accompanying SPDs is even stronger
evidence of the parties’ intent not to provide vested
healthcare benefits when viewed together with specific
references in the pension plan SPDs to “vested pension
benefits” and “vested terminated employees.” Morrell,
37 F.3d at 1307; accord Cooper, 884 F.3d at 620-21. As
the Supreme Court noted in Reese, “[i]f the parties
meant to vest health care benefits for life [or until age
65], they easily could have said so.” 138 S. Ct. at 766.

App. 14
For these reasons, we conclude that the 2007 and
2010 CBAs unambiguously reflected the parties’ intent
to adopt non-vested “Retiree Health Care (Pre 65 only)”
healthcare benefits. In these circumstances, though
Plaintiffs submitted declarations and other evidence
that Honeywell and its staff made representations that
early-retiring employees would be “guaranteed
healthcare until 65” if they retired before February
2013, “extrinsic evidence may not be considered.”
Maytag, 687 F.3d at 1086 (emphasis in original). Thus,
Plaintiffs have no likelihood of success on their claims
that Honeywell’s termination of early retiree
healthcare benefits breached either the CBAs or the
ERISA plans, and the grant of a preliminary injunction
must be reversed.
The Orders of the district court dated December 29,
2017, and January 31, 2018 are reversed, and the case
is remanded for further proceedings not inconsistent
with this opinion.
______________________________

App. 15
UNITED STATES COURT OF APPEALS
FOR THE EIGHTH CIRCUIT
[Filed March 21, 2019]
No: 18-1006
__________________________________________
Augustine Pacheco; Vicki Hansen,
)
for themselves and others similarly-situated )
)
Plaintiffs - Appellees
)
)
v.
)
)
Honeywell International Inc.
)
)
Defendant - Appellant
)
_________________________________________ )
No: 18-1294
__________________________________________
Augustine Pacheco; Vicki Hansen,
)
for themselves and others similarly-situated )
)
Plaintiffs - Appellees
)
)
v.
)
)
Honeywell International Inc.
)
)
Defendant - Appellant
)
_________________________________________ )

App. 16
__________________________________________
Appeal from U.S. District Court for the
District of Minnesota - Minneapolis
(0:17-cv-05048-SRN)
(0:17-cv-05048-SRN)
__________________________________________
JUDGMENT
Before LOKEN, MELLOY, and ERICKSON, Circuit
Judges.
These appeals from the United States District Court
were submitted on the record of the district court,
briefs of the parties and were argued by counsel.
After consideration, it is hereby ordered and
adjudged that the orders of the district court in these
causes are reversed and remanded to the district court
for further proceedings not inconsistent with the
opinion of this court.
March 21, 2019
Order Entered in Accordance with Opinion:
Clerk, U.S. Court of Appeals, Eighth Circuit.
_________________________________________
/s/ Michael E. Gans

App. 17

APPENDIX B
UNITED STATES DISTRICT COURT
DISTRICT OF MINNESOTA
Civil No. 17-5048 (SRN/HB)
[Filed January 31, 2018]
__________________________________________
Augustine Pacheco and Vicki Hansen,
)
for themselves and others similarly-situated, )
)
Plaintiffs, )
)
v.
)
)
Honeywell, International Inc.,
)
)
Defendant. )
_________________________________________ )
AMENDED MEMORANDUM OPINION
AND ORDER
John G. Adam, Legghio & Israel, P.C., 306 South
Washington Avenue, Suite 600, Royal Oak, Michigan
48067, and Katrina E. Joseph, Teamsters Local
No. 120, 9422 Ulysses Street Northeast, Suite 120,
Blaine, Minnesota 55434, counsel for Plaintiffs.
Donald M. Lewis, Jeremy D. Robb, and Joseph G.
Schmitt, Nilan Johnson Lewis PA, 120 South Sixth
Street, Suite 400, Minneapolis, Minnesota 55402; Craig
S. Primis, Kathleen Ann Brogan, and Kenneth Winn

App. 18
Allen, Kirkland & Ellis, 655 15th Street Northwest,
Suite 1200, Washington, D.C. 20005, counsel for
Defendant.
__________________________________________
SUSAN RICHARD NELSON, United States District
Judge
Plaintiffs Augustine Pacheco and Vicki Hansen filed
this suit on November 7, 2017, on their own behalf and
on behalf of similarly-situated retirees, under the
Employment Retirement Income Security Act (ERISA)
and the Labor Management Relations Act (LMRA).
They assert claims against their former employer
Honeywell International, Inc. (“Honeywell”) for
breaches of certain collective bargaining agreements
(“CBAs”) that they allege contain collectively-bargained
promises of Honeywell-sponsored healthcare benefits
until age 65 for employees who took early retirement
under the Honeywell-sponsored benefits plan. (See
Compl. ¶¶ 103-39 [Doc. No. 1].)
Shortly after filing this suit, Plaintiffs moved for
injunctive relief, seeking an order prohibiting
Honeywell from terminating their healthcare coverage,
and their families’ coverage, which was set to expire
January 1, 2018, during the pendency of this litigation.
(See Pls.’ Mot. for Prelim. Inj. at 1 [Doc. No. 18].)
Following an expedited briefing schedule and a
December 21, 2017 motion hearing, the Court issued a
provisional ruling on December 29, 2017, granting
Plaintiffs’ request for a preliminary injunction through
January 31, 2018. (See Dec. 29, 2017 Order
[Doc. No. 39].) The ruling was provisional because the
Court had only four business days between Christmas

App. 19
and New Years in which to issue the order. The Court
stated that it would thoroughly review the record and
the pertinent authorities and issue an amended order
no later than January 31, 2018. (See id. at 32.)
Now, having had the opportunity to conduct its
thorough review, the Court issues this Amended Order.
For the reasons set forth in the December 29, 2017
Order, incorporated herein, and below, Plaintiffs’
Motion for a Preliminary Injunction is granted,
pending an adjudication on the merits of Plaintiffs’
claims or further order of this Court after notice and
hearing.
I.

BACKGROUND

Plaintiffs Pacheco and Hansen are former members
of the production and maintenance collective
bargaining unit at Honeywell’s Minnesota facilities and
were represented by the International Brotherhood of
Teamsters Local 1145 (“the Union”). (See Compl. ¶ 5.)
Defendant Honeywell is a Fortune 100 company, with
operations in approximately 1,250 cities throughout the
world, with sales of approximately $38 billion. (Id.
¶ 10.)
A. Factual History
In 2007 and 2010, Honeywell entered into CBAs
with the Union, which included pension and welfare
provisions for employees who elected to take:
(1) “normal retirement” at age 65 or later; or (2) “early
retirement,” for employees with at least 15 years of
credited service, who were at least 55 years old, but
younger than 65, at the time of retirement. (Id. ¶ 14;
Ex. 3 to Pls.’ Mot., Art. 24, § 7 (2007 CBA), Ex. 5 to Pls.’

App. 20
Mot., Art. 24, § 7 (2010 CBA).)1 Employees who took
early retirement received a reduced pension for the rest
of their lives, based on a formula that accounted for the
employees’ age and years of service. (See Compl. ¶¶ 1516.) At issue here are the healthcare benefits available
to the employees who took early retirement during the
periods of the 2007 and 2010 CBAs.
1. Pre-2007 CBA
Plaintiffs allege that for more than 30 years prior to
the 2007 CBA, Honeywell sponsored and provided
healthcare benefits for eligible early retirees, starting
from the date of retirement and continuing after the
expiration of the CBA in effect when retirement began,
until the retiree reached age 65. (Id. ¶ 20.) These
benefits, Plaintiffs allege, also extended to the retiree’s
spouse or surviving spouse until age 65, and to the
retiree’s dependent children until age 26. (Id.)
In support of these allegations, Plaintiffs point to a
2005-2006 document entitled “Frequently Asked
Questions and Answers Regarding Retirement.” (See
Id. ¶ 21.) Among the information in the FAQ
documents, Honeywell provided the following:
Q: When I reach age 65 my medical coverage ceases
for myself. I have a spouse and dependents,
what medical coverage will they have?

1

All exhibits to Plaintiffs’ Motion are found at ECF Doc. No. 21-1
through 21-18.

App. 21
A: Medical coverage that you had selected for your
spouse and eligible dependents continues until
your spouse reaches age 65.
(Ex. 1 to Pls.’ Mot. (FAQ at 7).)
Plaintiffs also identify a 2001 agreement between
Honeywell and the Union concerning severance in the
event of restructuring or relocating which also
incorporated retiree healthcare benefits. A section
entitled “Insurance Continuation” provides that
terminated employees who are eligible to retire “will be
eligible for retiree medical in accordance with the
terms of the applicable plan.” (Ex. 2 to Pls.’ Mot. (2001
Agmt. at 68).) In addition, in a section labeled “Pension
Benefits,” it states: “Employees shall receive Pension
benefits in accordance with the provisions of the
Pension Plan, including retiree medical.” (Id.) Plaintiffs
contend that this agreement remains in effect. (See
Compl. ¶ 22.)
2. The 2007 CBA
The healthcare benefits provisions in the 2007 CBA
are found in Article 24. In Section 7 of Article 24,
entitled “Retiree Health Care (Pre 65 only)” Honeywell
promised that it “will provide” certain contributions to
the healthcare expenses for its pre-65 retirees, their
dependents, and surviving spouses. (See Ex. 3 to Pls.’
Mot., Art. 24, § 7.) It further stated, “The Company
does not provide healthcare benefits for Local 1145
retirees after age 65.” (Id.)
The first sentence of Section 1 of Article 24 stated
that these insurance and benefit plans would be
implemented and maintained “as specified by the time

App. 22
periods outlined below for the duration of this
Agreement.” (Id., Art. 24, § 1.) The 2007 CBA also
contained a general durational clause, stating, “This
Agreement shall become effective February 1, 2007 and
shall remain in force and effect up to midnight
January 31, 2010.” (Id., Art. 35, § 1.)
Subsequent to the 2007 CBA, Honeywell appears to
have provided its employees with “answers” to
questions about the 2007 CBA retiree healthcare
coverage, including the following:
Q: What healthcare coverage is provided to
retirees?
A: Local 1145 retirees are eligible for healthcare
coverage through Honeywell until age 65. After
age 65[,] they are eligible for Medicare with no
subsidy from Honeywell.
(Ex. 4 to Pls.’ Mot. (Answers to Question at 2).) In the
same document, Honeywell informed its employees
that limits on its annual contributions to retiree
healthcare benefits were not expected to “hit until
2018,” eight years after the 2010 expiration of the 2007
CBA. (Id.)
3. The 2010 CBA
The nearly identical healthcare provisions for pre65 retirees in the 2010 CBA are likewise found in
Article 24 of that agreement. Again, in Section 7 of
Article 24, also entitled “Retiree Health Care (Pre 65
only),” Honeywell promised that it “will provide”
certain contributions to the healthcare expenses for the
pre-65 retirees, their dependents, and surviving

App. 23
spouses. (See Ex. 5 to Pls.’ Mot., Art. 24, § 7.) As with
the 2007 CBA, Honeywell stated, “The Company does
not provide healthcare benefits for Local 1145 retirees
after age 65.” (Id.)
In Section 1 of Article 24, the 2010 CBA also stated
that the healthcare provisions were to be implemented
and maintained “as specified by the time periods
outlined below for the duration of this Agreement. (The
plans list a time period 1/1/13–12/31/13, it is
understood that the Agreement expires 1/31/2013.)”
(Id., Art. 24, § 1.) And, as with the 2007 CBA, the 2010
CBA contained a general durational clause, stating,
“This Agreement shall become effective February 1,
2010 and shall remain in force and effect up to
midnight January 31, 2013.” (Id., Art. 31, § 1.)
The new, different language in the 2010 CBA,
pertinent here, outlined certain procedures for a
“Special Retirement Program.” (Id., Art. 24, § 7.) The
procedures applied to employees who retired on or after
February 1, 2010, for whom Honeywell would not
contribute any amount toward the retirees’ medical
premiums, except as follows:
Employees who provide the Company with at
least four (4) months advance written notice of
his or her irrevocable decision to retire on a date
certain between August 1, 2010 and February 1,
2013 and are not terminated for cause will be
eligible for retiree medical coverage under the
1145 retiree medical plan with respect to which

App. 24
Honeywell will contribute towards the annual
retiree medical premium.
(Id.)
Honeywell provided its employees a document
entitled “Pension and Medical Question[s]” regarding
the Special Retirement Program. (See Ex. 7 to Pls.’
Mot. (Pension & Medical Document).) In the document,
Honeywell stated that the Special Retirement Program
represented a limited window of opportunity during
which eligible employees could take early retirement
and still receive medical benefits:
Q:

If I retire after 2/1/2013 will I have Retiree
Medical?

[A:]

No - 2010 CBA - Effective February 1, 2011,
for each employee who terminates and
retires on or after February 1, 2010[,]
Honeywell will not contribute any amount
toward the annual retiree medical [premium]
except under the “[S]pecial Retirement
Program” provision. Page 38, 1/31/2010 CBA.
***

Q:

If I retire does my medical insurance end at
age 65 when I’m eligible for [M]edicare?

[A:]

Yes - A Co[b]ra type policy is available for
your [dependents], but you pay the whole
premium cost per month.

(Id. at 2.)

App. 25
In addition to the Q&A document, Honeywell
provided information in various other forms concerning
the pre-65 retirement program. It offered “[v]oluntary,
off-shift informational sessions on making the decision
to retire,” at which one of the covered topics was
“[r]etiree medical.” (Ex. 8 to Pls.’ Mot. (Honeywell
Retirement Planning Sessions).) Gregory Harrer, a
former Honeywell employee who retired at age 57 in
October 2012, attended at least one such session when
he was still employed. (Ex. 19 to Pls.’ Mot. (Harrer
Decl. ¶ 5).) Harrer attests that Honeywell Human
Resources and management officials informed the
attendees “that as long as we retired under the ‘special’
procedures we were guaranteed healthcare to age 65.”
(Id.) Honeywell officials indicated that after turning 65,
the retirees “would go on Medicare and [their]
Honeywell healthcare would end.” (Id.) Another former
Honeywell employee, Named Plaintiff Vicki Hansen,
retired in January 2013 based on the 2010 CBA’s
window of opportunity to retire with healthcare
benefits. (Ex. 18 to Pls.’ Mot. (Hansen Decl. ¶¶ 4-6).) In
the fall of 2010, she and a coworker met with the
Honeywell Labor Relations Manager Chuck Bengtson
and Honeywell Human Resources Director Dave
Hanson to discuss retiree healthcare options. (Id. ¶ 5.)
Bengtson allegedly assured the employees that if they
followed the special retirement process, healthcare
benefits until age 65 were guaranteed, and Honeywell
could not end the benefits any earlier. (Id.) Moreover,
Bengtson noted that the 2010 CBA offered the “last
chance to retire with healthcare.” (Id.)
Also, Honeywell provided information on the Special
Retirement Program application process, and warned,

App. 26
“Effective with the February 1, 2010 [CBA], . . .
Honeywell will no longer subsidize retiree medical
benefits for employees who are not already retired or
who do not retire under the Special Retirement
Program.” (Ex. 9 to Pls.’ Mot. (Special Retirement
Process).) Further, Honeywell provided “enrollment
worksheets,” identifying the costs of different pre-65
retiree medical coverage categories, and confirming
employees’ personal and dependent information on file,
including birth dates. (See Ex. 11 to Pls.’ Mot.
(Enrollment Worksheet).)
4. Summary Plan Descriptions
Both the 2007 and the 2010 CBAs included
references to separate “Summary Plan Documents” or
“SPDs” for additional details. (See, e.g., Ex. 1 to Jacobs
Decl. (2007 CBA at 25-29); Ex. 2 to Jacobs Decl. (2010
CBA at 34-36).)2 For example, the 2007 CBA referred
to the SPD concerning network basic benefits and the
terms and conditions of the dental and vision benefits
under the plan. (See Ex. 1 to Jacobs Decl. (2007 CBA at
25-27).)
The SPDs issued during the period of the 2007 and
2010 CBAs, which are insurer-specific, contain two
provisions regarding termination of coverage. Section 7
of the respective SPDs provides that coverage will
cease on the date that the plan is terminated or
canceled, and Section 14 states that Honeywell
reserves the right to terminate the plan, or any portion
2

All exhibits to the Declaration of Steven Jacobs in Opposition to
Plaintiffs’ Motion for a Preliminary Injunction are found at ECF
Nos. 33-1 through 33-17.

App. 27
of it, at any time and for any reason, except as
prohibited by law, “or the provisions of a written
collective bargaining agent [sic] of an employee or
employees entitled to benefits under this Plan.” (See,
e.g., Ex. 3 to Jacobs Decl. (2007 BCBS PPO SPD at 97,
115); Ex. 4 to Jacobs Decl. (2007 United Healthcare
Choice Plus PPO SPD at 103, 121); Ex. 5 to Jacobs
Decl. (2011-2013 BCBS PPO SPD at 123, 141); Ex. 6 to
Jacobs Decl. (United Healthcare Choice Plus PPO SPD
at 128, 147).) Similar reservation-of-rights language
also appears elsewhere in the SPDs. (See, e.g., id.,
Ex. 3 at 2, 6; Ex. at 3; Ex. 5 at 4, 10, 20, 28, 32; Ex. 6 at
4, 10, 20, 28, 32, 147.)
5. Honeywell’s Announcement
In late March 2017, Honeywell informed
approximately 320 Minnesota early retirees of its
intent to terminate their medical and prescription drug
coverage, and their dependents’ coverage, effective
after December 31, 2017, i.e., on January 1, 2018. (See
Ex. 12 to Pls.’ Mot. (Mar. 27, 2017 Letter); Ex. 13 to
Pls.’ Mot. (List of Retirees Receiving Letter).)
A month earlier, Honeywell and the Union had
signed a “Memorandum of Agreement” stating that
“[t]he parties agree that the Company will terminate
retiree healthcare benefits for current retirees no
sooner than December 31, 2017 with at least 6 months
notice to retirees prior to termination.” (Ex. 7 to Jacobs
Decl. (Feb. 1, 2017 Mem. of Agmt.) On February 4,
2017, a new CBA went into effect that contains no
provisions for retiree healthcare benefits. (See Ex. 17 to
Jacobs Decl. (2017 CBA at 40).)

App. 28
B. Procedural History
In this lawsuit, Plaintiffs, who assert breaches of
the applicable CBAs and violations of federal law, seek
class certification, injunctive relief, reimbursement,
damages, and attorneys’ fees. (See Compl. at 34–35.)
They contend that they would not have taken early
retirement and given up their jobs had Honeywell
informed them of its purported belief that it could
terminate their pre-65 medical coverage regardless of
their age or the ages of their spouses or dependents at
termination. (See id. ¶ 137.) On December 12, 2017,
they filed the instant motion, seeking an order
prohibiting Honeywell from ending, on January 1,
2018, their pre-65 healthcare coverage, and their
families’ coverage, while this case is litigated. (See Pls.’
Mot. at 1.)
Plaintiffs argue that they have met the four factors
of the Dataphase test necessary for preliminary
injunctive relief. (Pls.’ Mem. in Supp. Mot. for Prelim.
Inj. at 6–7 [Doc. No. 20].) First, they contend that they
are likely to succeed on the merits of their claims
because the 2007 and 2010 CBAs unambiguously
promised healthcare benefits beginning upon their pre65 retirement and ending upon turning 65 years old.
(Id. at 9–13.) Accordingly, they argue, their rights to
pre-65 healthcare benefits vested. (Id.) This specific
language, Plaintiffs assert, trumps the general
durational language in the CBAs, which calls for the
expiration of the agreements at stated times. (Id. at
9–10; 14–15.) Moreover, Plaintiffs assert that their
reading of the CBAs is consistent with the contracting
parties’ intentions, noting Honeywell’s many

App. 29
assurances regarding the continuation of healthcare
benefits until age 65. (Id. at 11.) Second, as to
irreparable harm, Plaintiffs contend that the threat of
termination of their medical benefits constitutes
irreparable injury, and, given the higher cost of
replacement coverage, they suffer from anxiety and
stress due to the prospect of having to choose between
medical care and other necessities of life, often on fixed
incomes. (Id. at 15–16.) Finally, Plaintiffs assert that
the two final factors for awarding injunctive relief—the
balance of harms and the public interest—favor them,
given the significant impact of the loss of healthcare to
them versus the monetary cost to Honeywell of
providing the benefits, and the strong public interest in
preserving retiree healthcare benefits. (Id. at 16.)
In opposition, Honeywell argues Plaintiffs satisfy
none of the factors necessary for injunctive relief. First,
it contends, Plaintiffs have not shown a likelihood of
success on the merits. (Defs.’ Opp’n Mem. at 10–11
[Doc. No. 32].) Like Plaintiffs, Honeywell asserts that
the 2007 and 2010 CBAs are unambiguous. (See id. at
14.) However, it reads them as unambiguous in its
favor, arguing that the agreements did not
permanently vest pre-65 healthcare benefits. (Id.)
Rather, Honeywell contends, not only did the CBAs
lack explicit vesting language, any promises for pre-65
retirees’ healthcare benefits were subject to the general
durational language in the agreements and
Honeywell’s reservation of rights in the SPDs to
terminate or alter the plans at any time. (Id. at 11–19.)
Because it finds the contract language unambiguous, it
asserts that any reliance on extrinsic evidence is
improper. (Id. at 29–30.) Second, Honeywell asserts

App. 30
that Plaintiffs cannot demonstrate irreparable harm
because nine months prior to the filing of the instant
motion, the Union—then representing Plaintiffs—
agreed that Honeywell would not extend healthcare
benefits beyond December 31, 2017. (Id. at 32.)
Moreover, the delay in time between Honeywell’s
March 2017 notice of termination and the filing of the
instant motion, Honeywell argues, negates Plaintiffs’
claim of irreparable harm and constitutes sufficient
reason to deny the motion. (Id. at 33–35.) It contends
that the delay undercuts any claimed urgency and,
considering the balance of harms, renders a
preliminary injunction inequitable as “Honeywell
would be burdened by an injunction forcing it to
continue paying benefits while this litigation proceeds.”
(Id. at 35.) It estimates that monthly coverage for
Plaintiffs costs Honeywell at least $368,000 per month.
(Id.) Finally, Honeywell argues that the public interest
weighs in favor of denying Plaintiffs’ motion, as
Honeywell should not be “forc[ed] . . . to pay for
insurance benefits that it never contractually agreed to
provide and never understood to be vested.” (Id. at 36.)
Following the issuance of the December 29, 2017
Order granting injunctive relief through January 31,
2018, Honeywell filed an appeal with the Eighth
Circuit Court of Appeals and moved for an expedited
hearing. See Pacheco v. Honeywell, 18-1006, (8th Cir.),
Def.’s Mot. to Expedite. The Eighth Circuit denied
Honeywell’s motion for an expedited briefing schedule
and hearing. Id., Jan. 26, 2018 Order. The appeal
remains pending and briefing has not yet been filed.

App. 31
II.

DISCUSSION

This Court must consider four factors to determine
whether preliminary injunctive relief is warranted:
(1) the movant’s likelihood of success on the merits;
(2) the threat of irreparable harm to the movant in the
absence of relief; (3) the balance between that harm
and the harm injunctive relief would cause to the other
litigants; and (4) the public interest. Dataphase Sys.,
Inc. v. CL Sys., Inc., 640 F.2d 109, 114 (8th Cir. 1981)
(en banc); accord Watkins, Inc. v. Lewis, 346 F.3d 841,
844 (8th Cir. 2003) (quoting Dataphase). To analyze
these factors, the Court must “flexibly weigh the case’s
particular circumstances to determine whether the
balance of equities so favors the movant that justice
requires the court to intervene.” Hubbard Feeds, Inc. v.
Animal Feed Supplement, Inc., 182 F.3d 598, 601 (8th
Cir. 1999). A preliminary injunction “is an
extraordinary remedy never awarded as a matter of
right.” Winter v. Nat. Res. Def. Council, Inc., 555 U.S.
7, 24 (2008). The burden of establishing the four
Dataphase factors lies with the party seeking
injunctive relief. Watkins, 346 F.3d at 844.
A. Irreparable harm
“The basis of injunctive relief in the federal courts
has always been irreparable harm and the inadequacy
of legal remedies.” Bandag, Inc. v. Jack’s Tire & Oil,
Inc., 190 F.3d 924, 926 (8th Cir. 1999) (per curiam)
(quoting Beacon Theatres, Inc. v. Westover, 359 U.S.
500, 506–07 (1959)). If monetary damages can
compensate the plaintiff for the threatened harm, an
adequate remedy at law exists, precluding injunctive
relief. See Northland Ins. Cos. v. Blaylock, 115 F. Supp.

App. 32
2d 1108, 1116 (D. Minn. 2000) (citing In re Travel
Agency Comm’n Antitrust Litig., 898 F. Supp. 685, 689
(D. Minn. 1995)). The availability of monetary relief to
compensate a portion of the harm does not preclude
injunctive relief as to “other less tangible injuries [that]
cannot be so easily valued or compensated.” Glenwood
Bridge, Inc. v. Minneapolis, 940 F.2d 367, 371–72 (8th
Cir. 1991).
The Court finds that Plaintiffs have demonstrated
irreparable harm, absent the issuance of injunctive
relief. Plaintiff Vicki Hansen attests that she gave up
her job at Honeywell and took early retirement in
January 2013 in reliance on Honeywell’s promise of
pre-65 healthcare benefits. (Ex. 18 to Pls.’ Mot.
(Hansen Decl. ¶ 6).) She contends that replacement
medical coverage for her and her husband would cost
approximately $2,171 per month, with a $900 per
person deductible, and an out-of-pocket maximum of
$6,500 per person. (Id. ¶ 7.) In contrast, under the pre65 Honeywell plan, Hansen currently has a $200 per
person deductible, with an out-of-pocket maximum of
$2,000 per person. (Id.) With her monthly Honeywell
pension check of $2,926, she contends that if she were
required to obtain replacement healthcare coverage,
she would have approximately $400, after taxes, with
which to pay deductibles, living expenses, and other
necessities. (Id. ¶ 8.) In addition to this financial harm,
Hansen maintains that absent injunctive relief, the
quality of life that she and her husband enjoy would
deteriorate. (Id. ¶ 9.) Not only is the stress caused by
the direct loss of healthcare benefits and its attendant
financial consequences a source of worry and anxiety,

App. 33
equally concerning is the prospect of having to choose
between healthcare and other necessities of life. (Id.)
Fellow pre-65 retiree Gregory Harrer similarly
asserts that comparable replacement insurance would
cost about $1,129 per month. (Ex. 19 to Pls.’ Mot.
(Harrer Decl. ¶ 7).) Even if he qualified for a state
subsidy, assuming it remains available, he would be
required to spend much of his Honeywell pension on
replacement healthcare coverage. (Id.) He notes that if
his healthcare benefits are terminated, he will have to
“limit [his] medical treatment and choose between
healthcare and other necessities,” seriously impacting
his quality of life. (Id. ¶ 8.) Based on his conversations
with other Minnesota retirees, he understands that
they share similar concerns. (Id.)
This Court has observed that “the mere threat of
termination of medical benefits” constitutes irreparable
injury, Teamsters Local No. 120 v. Marathon
Petroleum Co. LLC, No. 06-cv-3431 (PAM/JSM), 2006
WL 2971667, at *6 (D. Minn. Aug. 29, 2006) (citing
Commc’ns Workers of Am. Dist. One, AFL-CIO v.
NYNEX Corp., 898 F.2d 887, 891 (2d Cir. 1990)), and,
similarly, that “the termination of health insurance
benefits of individuals on fixed incomes presents a
sufficient threat of irreparable harm to warrant
injunctive relief.” Id. (citing Int’l Union, United Auto.,
Aerospace & Agric. Implement Workers of Am. v.
White Farm Farm Equip. Co., No. CV-4-84-770, 1984
WL 4605, at *4 (D. Minn. Oct. 19, 1984)). In White
Farm, this Court found that losing medical benefits
“might well [force fixed-income retirees] to forgo other
necessities of life such as food, clothing, or shelter,”

App. 34
1984 WL 4605, at *4, similar to the concerns that
Ms. Hansen and Mr. Harrer raise here, with the
accompanying emotional distress. As the court in
LaForest v. Honeywell, International, Inc. observed:
Justice Breyer, when a member of the First
Circuit Court of Appeals succinctly pointed out
that certain general facts are commonly believed
or have been held to constitute irreparable harm
concerning retirees and reductions in medical
benefits, such as: ‘(1) most retired union
members are not rich; (2) most live on fixed
incomes; (3) many will get sick and need medical
care; (4) medical care is expensive; (5) medical
insurance, is therefore, a necessity; (6) some
retired workers find it difficult on their own
while others pay for it only out of money that
they need for other necessities of life. . . .’ It is
easy to understand that emotional distress is
likely to follow termination of retiree medical
insurance benefits.
No. 03-cv-6248T, 2003 WL 23180220, at * 2 (W.D.N.Y.
2003) (quoting United Steelworkers of Am. v. Textron,
Inc., 836 F.2d 6, 8 (1st Cir. 1987)). Moreover, monetary
damages are insufficient compensation for sacrificing
medical care or being denied such care. See Marathon
Petroleum, 2006 WL 2971667, at *6 (citing United
Steelworkers of Am. v. U.S. Steel Corp., Civ.
No. 5–77–76, 1977 WL 1720, at *6 (D. Minn. Sept. 2,
1977)).
Honeywell contends that Plaintiffs’ own delay in
filing suit undercuts their claims of irreparable harm.
(See Def.’s Opp’n Mem. at 32–33.) The Court disagrees.

App. 35
True, courts have found that under some
circumstances, delay in seeking injunctive relief may
justify its denial. See, e.g., Hubbard Feeds, 182 F.3d at
603. But as noted earlier, the delay here is one of a few
months, not years, and the Court is unaware of when
Plaintiffs first obtained counsel. The cases that
Honeywell cites in support of its position are not
sufficiently similar to the facts here. See Tarek ibn
Ziyad Academy v. Islamic Relief USA, 794 F. Supp. 2d
1044, 1059 (D. Minn. 2011) (noting that charter school
had been aware of impending changes in Minnesota
law, and that its sponsor declined to challenge the
constitutionality of the statutory changes, for a twoyear period before seeking relief); Aviva Sports, Inc. v.
Fingerhut Direct Mktg., Inc., No. 09-cv-1091
(JNE/JSM), 2010 WL 2131007, at *1 (D. Minn. May 25,
2010) (observing that plaintiffs knew of the allegedly
false advertisements for several years before bringing
suit); Key Med. Supply, Inc. v. Sebelius, No. 12-CV-752
(DWF/JJG), 2012 WL 1072328, at *3
(D. Minn. Mar. 30, 2012) (noting plaintiffs’ delay of
several months in seeking relief, but delay was not the
sole reason for denying relief); CHS, Inc. v. PetroNet,
LLC, No. 10-cv-94 (RHK/FLN), 2010 WL 4721073, at
* 3 (D. Minn. Nov. 15, 2010) (identifying a delay of
eight months between filing of complaint and motion
for injunctive relief, in addition to injury that appeared
to be monetarily compensable); Nelson v. Faithful Fin.,
LLC, No. 10-cv-3405 (JNE/JJG), 2010 WL 3384795, at
*3 (D. Minn. Aug. 25, 2010) (noting that plaintiffs
received notice of foreclosure, postponed the sale for
five months, then waited six months before seeking
expedited injunctive relief); Clam Corp. v. Innovative
Outdoor Sols., Inc., No. 08-cv-5895 (DSD/AJB), 2008

App. 36
WL 5244845, at *4 (D. Minn. Dec. 15, 2008) (observing
that plaintiff had been aware of allegedly infringing
trademarked product for the preceding year). Rather,
the “delay” here is one of a few months between the
notice of termination and the filing of the lawsuit.
Given the overwhelming prospect of irreparable harm,
the significance of the delay here is minimal and does
not negate the Court’s finding of irreparable harm.
For all of the foregoing reasons, the Court finds that
Plaintiffs have satisfactorily shown a threat of
irreparable harm absent a preliminary injunction.
B. Likelihood of Success
In order to obtain a preliminary injunction,
Plaintiffs must show that they have a “fair chance of
prevailing” on their claims. Planned Parenthood Minn.,
N.D., S.D. v. Rounds, 530 F.3d 724, 732 (8th Cir. 2008).
“An injunction cannot issue if there is no chance on the
merits.” Mid-Am. Real Estate Co. v. Ia. Realty Co., 406
F.3d 969, 972 (8th Cir. 2005). The moving party need
not show a “greater than fifty percent likelihood” of
success, but must demonstrate its claims provide “fair
ground for litigation.” Watkins, 346 F.3d at 844. “In
considering the likelihood of the movant prevailing on
the merits, a court does not decide whether the movant
will ultimately win.” PCTV Gold, Inc. v. SpeedNet,
LLC, 508 F.3d 1137, 1143 (8th Cir. 2007) (citation
omitted).
Central to the Court’s analysis here is the U.S.
Supreme Court’s decision in M & G Polymers USA,
LLC v. Hobert Freel Tackett, 135 S. Ct. 926 (2015).
Tackett involved an open-ended CBA provision for

App. 37
retiree insurance benefits that the Sixth Circuit found
ambiguous as to duration. Id. at 934. The appellate
court applied the reasoning of an earlier Sixth Circuit
decision, International Union, United Auto., Aerospace,
& Agricultural Implement Workers of America v. YardMan, Inc., 716 F.2d 1476 (6th Cir. 1983), drawing
inferences from the “context” of labor negotiations to
resolve the contractual ambiguity. Id. at 932 (citing
Tackett I, 561 F.3d 478, 490 (6th Cir. 2009)). Although
the CBA contained a general durational clause, the
Sixth Circuit found it “unlikely” that the employees’
union would have agreed to CBA language that
ensured a full company contribution if the employer
could have unilaterally changed those terms. Id. (citing
Tackett I, 561 F.3d at 490)). The Sixth Circuit thus
found the existence of a fact question as to whether the
retiree benefits vested for life. Id.
The Supreme Court disagreed. Writing for the
majority, Justice Thomas stated that contractual
provisions in CBAs are to be enforced as written and
interpreted in accordance with “ordinary principles of
contract law, at least when those principles are not
inconsistent with federal labor policy.” Id. at 933. As
with any contract, “the parties’ intentions control.” Id.
(citing Stolt-Nielsen S.A. v. AnimalFeeds Int’l Corp.,
559 U.S. 662, 682 (2010)). Where the terms of the
contract are unambiguous, it is to be construed “in
accordance with its plainly expressed intent.” Id.
(quoting 11 R. Lord, Williston on Contracts § 30:6,
p. 108 (4th ed. 2012) (Williston)). Courts may not
speculate as to the intentions of employees, unions, and
employers in negotiating retiree benefits, but must
ground their assessments on record evidence. See id. at

App. 38
935. Thus, courts may consider certain known customs
or industry usages to construe a contract, but “the
parties must prove those customs or usages using
affirmative evidentiary support in a given case.” Id.
(citing 12 Williston § 34:3).
When faced with ambiguous language, Justice
Thomas advised that courts “should not construe
ambiguous writings to create lifetime promises.” Id. at
936 (citing 3 A. Corbin, Corbin on Contracts § 533,
p. 216 (1960)). Rather, courts should be guided by the
“traditional principle that ‘contractual obligations will
cease, in the ordinary course, upon termination of the
bargaining agreement.’” Id. at 937 (quoting Litton Fin.
Printing Div., Litton Bus. Sys., Inc. v. NLRB, 501 U.S.
190, 207 (1991)). While a CBA may explicitly provide
that certain terms continue after the agreement’s
expiration, when a contract fails to address the
duration of retiree benefits, “a court may not infer that
the parties intended those benefits to vest for life.” Id.
In her concurring opinion, Justice Ginsburg
expounded upon Justice Thomas’s adherence to
fundamental principles of contract law, stating that
when the parties’ intent is unambiguously expressed in
the contract, that intent controls, and the court’s
analysis should go no further. Id. at 938 (Ginsburg, J.,
concurring) (citing 11 R. Lord, Williston on Contracts
§ 30:2, p. 98–104) (4th ed. 2012) (Williston)). However,
when faced with ambiguity, courts may consider
extrinsic evidence to determine the parties’ intentions.
Id. (citing 11 Williston § 30:7, at 116–24). Justice
Ginsburg further observed that there is no rule
requiring “clear and express” language in order to

App. 39
demonstrate that the parties intended healthcare
benefits to vest. Id. Rather, “‘[C]onstraints upon the
employer after the expiration date of a collectivebargaining agreement,’ we have observed, may be
derived from the agreement’s “explicit terms,” but they
‘may arise as well from . . . implied terms of the expired
agreement.’” Id. (alterations in original) (quoting
Litton, 501 U.S. at 203, 207).
Applying these fundamental contractual precepts in
Tackett, the Supreme Court remanded the matter to
the Sixth Circuit with instructions to apply ordinary
principles of contract law. Id. at 937.
It appears that post-Tackett, Honeywell has
proposed the termination of healthcare benefits to
retirees in other parts of the country, and the parties
here have referred to these other decisions. As the
court in one such case recognized, the agreements in
other cases invariably differ from those in the case at
hand, as each local union bargained with Honeywell to
achieve different results. See Kelly v. Honeywell Int’l,
Inc., 233 F. Supp. 3d 303, 312 (D. Conn. 2017)
(citations omitted). Nevertheless, to the extent that
some common features or distinctions exist, the Court
briefly examines these decisions.
In Fletcher v. Honeywell, 238 F. Supp. 3d 992, 994
(S.D. Ohio 2017), the court found the CBA language
ambiguous concerning the parties’ intent to vest
lifetime retiree healthcare benefits. Following an
evidentiary hearing, the court considered the live
testimony of four witnesses and the deposition
testimony of four other witnesses. Id. at 994–95. Given
that evidence, the court determined that the CBA

App. 40
reflected the parties’ understanding that Honeywell
would provide lifetime healthcare coverage for its
retirees. Id. at 999–1000.
To shed light on the parties’ intentions behind the
CBAs at issue, the court also considered evidence of
subsequent bargaining—namely, evidence of a one-year
window of opportunity to retire, prior to Honeywell’s
elimination of healthcare benefits for all retirees who
retired after June 1, 2012. Id. at 1007. The court
explained,
The parties’ understanding that the retirees had
lifetime healthcare benefits formed the premise
behind the creation of this window of
opportunity. It is inconceivable that nearly half
of the union employees at the Greenville plant
would agree to voluntarily retire based solely on
a promise that they would continue to receive
healthcare benefits only until May 22, 2014,
when the CBA expired. Accordingly, evidence of
what transpired during and after the 2011
negotiations provides additional support for a
finding that the parties intended that Honeywell
would provide lifetime retiree healthcare
benefits.
Id. at 1007–08. The Fletcher ruling is on appeal to the
Sixth Circuit.
In another recent Honeywell case, the court in
Cooper v. Honeywell International, Inc., No. 1:16-cv4712017, 2017 WL 213997, at * 1 (W.D. Mich. Jan. 6,
2017), issued a short order, granting the plaintiffs’
motion for a preliminary injunction, referring to the

App. 41
reasons stated on the record. This case involves pre-age
65 healthcare benefits. See Cooper, No. 1:16-cv4712017 (W.D. Mich.), Compl. 15-21 [Doc. No. 1]. In the
ruling, the court stated that it would not terminate the
plaintiffs’ healthcare coverage while the merits of the
suit were underway, finding that after “the weighing
and balancing of the relevant equities,” injunctive relief
was warranted to preserve the parties’ relative
positions. Cooper, 2017 WL 213997, at * 1. This case is
on appeal to the Sixth Circuit.
In Kelly, which involved lifetime benefits, the court
found that the CBAs contained a general durational
clause, but no reservation of rights clause,
distinguishing them from the CBAs in Abbruscato v.
Empire Blue Cross & Blue Shield, 274 F.3d 90, 94 (2d
Cir. 2001) (finding that language regarding retirees’ life
insurance coverage did not promise vested lifetime
benefits where same agreement contained reservation
of rights to end the plan). 233 F. Supp. 3d at 313. Thus,
as to retirees who retired before the expiration of the
agreements, the court found that the “for the life of”
language unambiguously indicated a contractually
vested right to lifetime medical benefits. Id. at 316. As
to another subclass of employees who retired after the
applicable CBAs expired, the court permitted the
development of the record, id. at 318, and later found
that this subclass was not entitled to benefits. See
Kelly v. Honeywell Int’l, Inc., No. 3:16-cv-00543 (VLB),
2017 WL 776543, at * 2 (D. Conn. Feb. 28, 2017).
Subsequently, however, it appears that these plaintiffs
may have prevailed on reconsideration, as the court
granted their motion for a preliminary injunction,
finding that they had received no notice of the

App. 42
termination of their benefits. See Kelly v. Honeywell
Int’l, Inc., No. 3:16-cv-0054 (VLB), 2017 WL 2798249,
at *1 (D. Conn. June 27, 2017). Some of these rulings
appear to be on appeal before the Second Circuit.
Thus far, the Sixth Circuit is the only appellate
court to have ruled in a Honeywell retiree benefits suit,
post-Tackett, in Watkins v. Honeywell International,
Inc., 875 F.3d 321 (6th Cir. 2017). Addressing different
CBA language and facts, that court affirmed the
district court’s dismissal of the retirees’ suit. The
district court, in granting Honeywell’s motion, found
the CBA unambiguous, requiring no extrinsic evidence
of intent. Id. at 323. It contrasted the CBA language
concerning pension plans—which explicitly vested for
life—with the language concerning healthcare benefits,
finding no such durational statements. Id. Specifically,
the language applicable to healthcare benefits in the
“Insurance” section of the Watkins CBA expressly
limited its terms, stating, “For the duration of this
Agreement, the Insurance Program shall be that which
is attached hereto . . . .” (Ex. 1 to Def.’s Dec. 21, 2017
Letter (Watkins CBA at 95) [Doc. No. 34-1].) The
Watkins Insurance Program, “attached” to the CBA,
contained no durational limits, as the Sixth Circuit and
district court found. (See Ex. 2 to Def.’s Dec. 21, 2017
Letter (Watkins Ins. Program at 53–54 [Doc. No. 34-2].)
This language, or lack thereof, is completely different
from the specific, to-age-65 language found in
Article 24, Section 7 of the 2007 and 2010 CBAs in this
case, as discussed in greater detail below. (See Exs. 3
& 5 to Pls.’ Mot. (2007 CBA & 2010 CBA at Art. 24,
§ 7).)

App. 43
Other recent, post-Tackett decisions are also
instructive. In Matthews v. Chicago Transit Authority,
Nos. 117638, 11777713, 117728, 2016 IL 117638, at *24
(Ill. May 5, 2016), the court considered pre-65 retiree
health insurance benefits. Specifically, the language in
question stated, “This benefit terminates when the
retiree attains age 65.” Id. at *25. The court found that
the right to the benefits vested when the employee
fulfilled all of the necessary qualifications and
obligations to enjoy it: “Where a retiree is under age 65
and has fulfilled the other prerequisites necessary to
establish eligibility, the right to the retiree health care
benefit is fully accrued.” Id. (citations omitted).
The Fourth Circuit found that retiree health care
benefits did not vest for life in Barton v. Constellium
Rolled Prods.-Ravenswood, LLC, 856 F.3d 348, 354 (4th
Cir. 2017), noting a lack of durational language.
However, the court contrasted the language at issue
with that in an earlier decision, Keffer v. H.K. Porter
Co., 872 F.2d 60 (4th Cir. 1989), in which “retiree
health benefits were explicitly linked not to
termination of the agreement, but to a post-termination
event, namely the date of the retiree’s eligibility for
Medicare.” Id. (quoting Dewhurst v. Century
Aluminum Co., 649 F.3d 287, 292 (4th Cir. 2011)
(discussing Keffer)).
Two recent Sixth Circuit decisions involving retiree
healthcare benefits, which the plaintiffs argued vested
for life, found the CBAs in question unambiguous and
not so sufficiently specific as to override the general
durational clauses found in the respective CBAs. See
Cole v. Meritor, Inc., 855 F.3d 695, 700 (6th Cir. 2017);

App. 44
Gallo v. Moen, 813 F.3d 265, 273–74 (6th Cir. 2016). In
Gallo, the court noted that “[a]bsent a longer time limit
in the context of a specific provision, the general
durational clause supplies a final phrase to every term
in the CBA.” 813 F.3d at 269.
Following Tackett and the guidance of these
subsequent decisions, the Court examines the four
corners of the applicable CBAs here to determine
whether the language in question unambiguously
expresses the contracting parties’ intentions. See
Tackett, 135 S. Ct. at 933. While Honeywell argues
that the 2007 CBA is silent as to retiree healthcare
benefits being vested, the Court disagrees.
The 2007 agreement makes clear that the provision
in question applies to “Retiree Health Care (Pre 65
only),” and that Honeywell “does not provide healthcare
benefits for Local 1145 retirees after age 65.” (See Ex. 3
to Pls.’ Mot., Art. 24, § 7.) The pre-65 benefits provision
then describes Honeywell’s levels of contribution for
post-retirement health benefits depending on whether
the employees retired before May 1, 2007 or after
April 30, 2007. (Id.) Honeywell contends that any right
to benefits expired upon the stated expiration of the
CBA on January 31, 2010, citing the CBA’s general
durational clause in Article 35, Section 1. But the
language of Section 7 contemplates extension of the
pre-65 benefits beyond the term of the CBA. Section 7
states:
The maximum annual dollar amount
contributed by Honeywell for post April 30, 2007
retirees, their dependents, and surviving

App. 45
spouses will be limited to $20,304 for single
coverage and $40,608 for family coverage.
The above limit on Company retiree health care
contributions will not apply to any year prior to
calendar year 2011.
(Id. at 27–28) (emphasis added).
The Court finds that the age limit (pre-65) in
Section 7 is sufficiently specific in duration. Moreover,
in this very section of the CBA, Honeywell agreed that
its future annual contribution limits for post-April 30,
2007 retirees would not go into effect until 2011—in a
contract with a general duration clause ending on
January 31, 2010.
The language in the 2010 CBA is similarly
unambiguous. Again, the healthcare benefits are of
specific duration, available to pre-65 retirees only. (See
Ex. 5 to Pls.’ Mot., Art. 24, § 7.) As with the 2007 CBA,
Honeywell stated, “The Company does not provide
healthcare benefits for Local 1145 retirees after age
65.” (Id.)
Moreover, in the additional language for the
“Special Retirement Program,” Honeywell stated that
it would make no contributions to pre-65 retirees’
medical premiums, except for:
Employees who provide the Company with at
least four (4) months advance written notice of
his or her irrevocable decision to retire on a date
certain between August 1, 2010 and February 1,
2013 and are not terminated for cause will be
eligible for retiree medical coverage under the

App. 46
1145 retiree medical plan with respect to which
Honeywell will contribute towards the annual
retiree medical premium.
***
The Company does not provide healthcare
benefits for Local 1145 retirees after age 65.
(Id. at 38) (emphasis added). This constituted an
express promise of specific duration. Consistent with
this promise, Honeywell agreed to provide healthcare
benefits to eligible employees who complied with the
notice and termination requirements and retired
between August 1, 2010 and February 1, 2013. For
example, under this language, for an employee who
retired on January 31, 2013—technically, the last day
of the term of the agreement, per the general
durational clause (Id., Art. 31, § 1)—Honeywell agreed
to pay that retiree’s premiums and healthcare benefits
after the expiration of the agreement, until the retiree
reached age 65. This express promise makes clear that
even though the durational clause generally
terminated the 2010 CBA on January 31, 2013, (see
id.), the pre-65 retiree healthcare benefits vested and
extended beyond that date to a date certain (i.e., age 65
of the respective retirees).
While a durational clause may show an intent to
limit healthcare benefits to the duration of the
agreement, as Defendant argues, Justice Thomas
observed in Tackett that “we have already recognized
that a collective bargaining agreement [may] provid[e]
in explicit terms that certain benefits continue after
the agreement’s expiration.” 135 S. Ct. at 937 (citation

App. 47
omitted). This is consistent with general principles of
contract law, in which “‘specific terms of a contract
govern over the general in the event of conflict.’”
Thomsen v. Famous Dave’s of Am., Inc., 606 F.3d 905,
910 (8th Cir. 2010) (quoting Medtronic, Inc. v.
ConvaCare, Inc., 17 F.3d 252, 255 (8th Cir. 1994)).
Consistent with Justice Thomas’s directive in
Tackett, the plainly expressed intent of the parties
must control. See 135 S. Ct. at 933 (citations omitted).
The Court finds that the language of the CBAs here
unambiguously provides for the vested healthcare
coverage of pre-65 retirees until they reach age 65,
along with the durational limits applicable to the
retirees’ dependents. As Justice Ginsburg observed in
her Tackett concurrence, the law does not require
“clear and express” language in order to demonstrate
that the parties intended healthcare benefits to vest.
Id. at 938 (Ginsburg, J., concurring). The language here
is sufficiently clear and specific and is in accord with
authority that requires clear expressions of intent to
vest in order to override general durational clauses.
See, e.g., Crown Cork & Seal Co., Inc. v. Int’l Assoc. of
Machinists & Aerospace Workers, 501 F.3d 912, 917
(8th Cir. 2007); John Morrell & Co. v. United Food &
Com. Workers Int’l, AFL-CIO, 37 F.3d 1302, 1307 (8th
Cir. 1994); Anderson v. Alpha Portland Indus., Inc.,
836 F.2d 1512, 1519 (8th Cir. 1988). And unlike Justice
Thomas’s concern that ambiguous writings not be
construed “to create lifetime promises,” Tackett, 135 S.
Ct. at 936 (citation omitted), the writings here are
neither ambiguous, nor do they give rise to lifetime
promises.

App. 48
In Honeywell’s motion to the Eighth Circuit for an
expedited hearing on its appeal of this Court’s
December 29, 2017 ruling, it addressed the merits,
arguing that the pre-65 CBA language merely limited
eligibility for benefits, but did not define the duration
of those benefits. See Pacheco, 18-1006 (8th Cir.),
Appellant’s Mot. to Expedite at 11–12. The Court
disagrees. While being under 65 years old is a
component of eligibility for the healthcare
benefits—and is one of several eligibility requirements
in the 2010 CBA, which also calls for advance written
notice of early retirement and no termination for
cause—it primarily concerns the temporal limit of
coverage. Both the 2007 and 2010 CBAs state,
“[Honeywell] does not provide healthcare benefits for
Local 1145 retirees after age 65.” (Ex. 3 to Pls.’ Mot.,
Art. 24, § 7; Ex. 5 to Pls.’ Mot., Art. 24, § 7) (emphasis
added).
In its motion to the Eighth Circuit, Honeywell also
argued that “the district court erred by relying on
extrinsic evidence to ‘support[ ] [its] finding that the
contracting parties intended for the pre-65 retirees’
benefits to vest.’” See Pacheco, 18-1006 (8th Cir.),
Appellant’s Mot. to Expedite at 14)) (citing Dec. 29,
2017 Order at 29). Honeywell misstated the clear bases
for this Court’s provisional ruling. In the provisional
ruling, as here, the Court found that the language in
the 2007 and 2010 CBAs unambiguously vested
healthcare benefits of specific duration to pre-65
retirees and their families (See Dec. 12 Order at 27.)
And, this Court ruled, clearly in the alternative, that
extrinsic evidence supported a finding that the parties
intended the vesting of the pre-65 retirees’ healthcare

App. 49
benefits, stating, “even if the language were
ambiguous, the current record evidence, while limited,
given the early posture of this case, sufficiently
supports the finding that the contracting parties
intended for the pre-65 retirees’ benefits to vest from
retirement until they reached age 65.” (Id. at 29)
(emphasis added). The Court did not improperly
consi der ex t ri nsic evidence. Honey w el l ’s
representations to the contrary contradict the plain
language of this Court’s ruling.
Again, the Court finds—in the alternative—that
even if the CBA language were ambiguous, Plaintiffs
have submitted evidence reflecting the intent to vest
with respect to the 2007 CBA through Honeywell Q&A
documents, (see Ex. 4 to Pls.’ Mot. (Answers to
Question at 2)), and the 2010 CBA through similar
Honeywell Q&A documents, (see Ex. 7 to Pls.’ Mot.
(Pension & Medical Document)), Honeywell-sponsored
presentations, (see Ex. 8 to Pls.’ Mot. (Honeywell
Retirement Planning Sessions); Ex. 19 to Pls.’ Mot.
(Harrer Decl. ¶ 5)), personal discussions between
prospective retirees and Honeywell’s Human Resources
staff, (see Ex. 18 to Pls.’ Mot. (Hansen Decl. ¶¶ 4-6)),
and Honeywell’s informational handouts on the
application and enrollment process in the Special
Retirement Program. (See Ex. 9 to Pls.’ Mot. (Special
Retirement Process); Ex. 11 to Pls.’ Mot. (Enrollment
Worksheet).) In addition, Ms. Hansen and Mr. Harrer
contend that they would not have relinquished their
employment if Honeywell had informed them that it
would terminate their healthcare coverage before age
65. (See Hansen Decl. ¶ 6; Harrer Decl. ¶ 6.) Instead,
both gave up their jobs based on Honeywell’s

App. 50
representations to provide healthcare benefits up to
age 65. (Id.)
In contrast to Plaintiffs’ evidence concerning
Honeywell’s representations of guaranteed healthcare
coverage, in Stearns, the Eighth Circuit noted that the
employer’s representatives in that case had advised
prospective plan participants at seminars and through
broadcasts that the retirement healthcare benefits
were subject to modification. See 297 F.3d at 709. No
such evidence has been presented to the Court in this
case. Discovery here may ultimately yield similar
evidence, but at this stage of the litigation, the Court
finds that Plaintiffs have sufficiently shown the parties’
intent to vest the limited pre-65 health care benefits, if
the CBA language is considered ambiguous. This
evidence supports the Court’s alternative basis for
finding that Plaintiffs have shown a fair chance of
prevailing on the merits.
As Justice Thomas noted, courts may also consider
certain known customs or industry usages to construe
a contract, if the parties provide sufficient evidentiary
support in the record. Tackett, 135 S. Ct. at 935 (citing
12 Williston § 34:3). Here, Honeywell’s prior practices
shed additional light on whether it intended to offer
vested healthcare benefits to age 65 to its pre-65
retirees, and support such a finding. (See Ex. 1 to Pls.’
Mot. (FAQ at 7); Ex. 2 to Pls.’ Mot. (2001 Agmt. at 68).)
Plaintiffs allege that for more than 30 years prior to
the 2007 CBA, Honeywell provided healthcare benefits
to its early retirees starting at retirement, and
continuing after the expiration of the applicable CBA,
until the retiree reached 65. (Compl. ¶ 20.) Moreover,

App. 51
although the Court does not consider Honeywell’s
payments for healthcare coverage to Plaintiffs, postdating the expiration of the applicable CBAs, to
constitute a waiver of its position regarding
termination of those benefits, the Court notes that
Honeywell made such payments for years, until
recently.
Honeywell further argues that the reservation-ofrights language in the SPDs “confirm[s] that benefits
were not permanently vested.” (Def.’s Opp’n Mem. at
19.) This language included the reservation to
terminate the plans at any time. (See, e.g., Ex. 3 to
Jacobs Decl. (2007 BCBS PPO SPD at 97, 115); Ex. 4 to
Jacobs Decl. (2007 United Healthcare Choice Plus PPO
SPD at 103, 121); Ex. 5 to Jacobs Decl. (2011-2013
BCBS PPO SPD at 123, 141); Ex. 6 to Jacobs Decl.
(United Healthcare Choice Plus PPO SPD at 128, 147).)
As Honeywell notes, the Eighth Circuit has held that
“an unambiguous reservation-of-rights provision is
sufficient without more to defeat a claim that
retirement welfare plan benefits are vested,” and that
“there must be an affirmative indication of vesting in
the plan documents to overcome an unambiguous
reservation of rights.” (Def.’s Opp’n Mem. at 20) (citing
Maytag Corp. v. Int’l Union, United Auto., Aerospace &
Agric. Implement Workers of Am., 687 F.3d 1076, 1085
(8th Cir. 2012) (finding that retiree class lacked vested
health care benefits where plan contained no indication
of vesting whereas SPD language expressly stated,
“The benefits described in this booklet are not vested
benefits” and Maytag reserved its rights to modify any
components of the plan); Stearns v. NCR Corp., 297
F.3d 706, 712 (8th Cir. 2002) (concluding that certain

App. 52
lifetime health care benefits were not vested, as no
affirmative indication of vesting in the plan documents
could overcome the unambiguous reservation of rights
provision); Crown Cork & Seal Co., 501 F.3d at 918
(holding that language providing personal coverage
“until your death,” was not explicit vesting language
and was inconsistent with a cap on lifetime benefits
and reservation-of-rights language); Hutchins v.
Champion Int’l Corp., 110 F.3d 1341, 1345–46 (8th Cir.
1997) (rejecting retiree’s argument that disability
benefits vested merely by virtue of receiving said
benefits; no express language vested benefits and
reservation of rights clause permitted former employer
to terminate benefits during retiree’s period of
incarceration); United Paperworkers Int’l Union, AFLCIO, CLC v. Jefferson Smurfit Corp., 961 F.2d 1384,
1385 (8th Cir. 1992) (declining to permit an oral
modification to a written, unambiguous ERISA welfare
benefit plan where plan contained no reference to
vested lifetime benefits or fixed premiums and
employer reserved right to modify plan); Anderson,
836 F.2d at 1518–19) (finding that lifetime benefits
were only to last for the duration of the CBA, relying,
in part, on reservation of rights language). Here,
however, as set forth above, the CBAs provide an
affirmative indication of vesting the pre-65 healthcare
benefits.
Unlike the benefits in the cases on which Honeywell
relies, the benefits here are not open-ended “lifetime”
benefits. In John Morrell, 37 F.3d at 1307–08, while
the Eighth Circuit rejected the retirees’ argument that
certain carve-out language in the CBA vested all
healthcare benefits, the court distinguished general,

App. 53
non-vesting lifetime benefits language from more
specific language that conferred vested benefits upon a
limited group, for a limited period. Specifically, the
court observed that healthcare benefits vested for a
group of retirees between ages 50 and 54 who, following
a plant closing, had elected a separation pension for a
five-year period. Id. at 1308. The benefits at issue here
are of similarly limited duration, conferred upon a
similarly limited class of retirees.
As noted earlier, to demonstrate a likelihood of
success on the merits, a party seeking injunctive relief
is only required to demonstrate that its claims provide
“fair ground for litigation.” Watkins, 346 F.3d at 844.
For the reasons noted above, the Court finds that
Plaintiffs have met that standard.
C. Remaining Dataphase Factors
The balance between the threat of irreparable harm
to Plaintiffs absent injunctive relief and the injury to
Honeywell if injunctive relief is granted weighs in favor
of Plaintiffs. In its motion to the Eighth Circuit,
Honeywell emphasized the ensuing financial risk that
this Court’s injunction imposes, albeit as a basis for
seeking an expedited hearing. See Pacheco, 19-1006
(8th Cir.), Appellant’s Mot. to Expedite at 9. Moreover,
Honeywell stressed that “because the majority of the
class members are quickly approaching 65, a great part
of Honeywell’s costs will be incurred within the next
year or so. . . .” Id. Honeywell’s acknowledgment that
“the majority” of Plaintiffs are approaching the 65
durational limit of coverage shows that its financial
injury is limited. Therefore, the balance of harms
weighs in favor of issuing the preliminary injunction.

App. 54
As to the final Dataphase factor of the public
interest, the Court finds that the public interest is
served by promoting the contracting parties’ intentions,
particularly in matters as critical as healthcare
coverage.
In conclusion, because the application of the
Dataphase factors weighs in Plaintiffs’ favor, their
request for a preliminary injunction is granted,
pending an adjudication on the merits of Plaintiffs’
claims or further order of this Court after notice and
hearing.
THEREFORE, IT IS HEREBY ORDERED THAT:
1. Plaintiffs’ Motion for a Preliminary Injunction
[Doc. No. 18] is GRANTED;
2. Defendant Honeywell International, Inc. is
preliminarily enjoined from terminating the
healthcare benefits of the Minnesota retirees
under age 65, and their families and surviving
spouses, pending an adjudication on the merits
of Plaintiffs’ claims or further order of this Court
after notice and hearing; and
3. The posting of a security bond is not required.
Dated: January 31, 2018
s/Susan Richard Nelson____
SUSAN RICHARD NELSON
United States District Judge

App. 55

APPENDIX C
UNITED STATES COURT OF APPEALS
FOR THE EIGHTH CIRCUIT
[Filed May 16, 2019]
No: 18-1006
__________________________________________
Augustine Pacheco and Vicki Hansen,
)
for themselves and others similarly-situated )
)
Appellees
)
)
v.
)
)
Honeywell International Inc.
)
)
Appellant
)
_________________________________________ )
No: 18-1294
__________________________________________
Augustine Pacheco and Vicki Hansen,
)
for themselves and others similarly-situated )
)
Appellees
)
)
v.
)
)
Honeywell International Inc.
)
)
Appellant
)
_________________________________________ )

App. 56
__________________________________________
Appeal from U.S. District Court for the
District of Minnesota - Minneapolis
(0:17-cv-05048-SRN)
(0:17-cv-05048-SRN)
__________________________________________
ORDER
The petition for rehearing en banc is denied. The
petition for rehearing by the panel is also denied.
May 16, 2019
Order Entered at the Direction of the Court:
Clerk, U.S. Court of Appeals, Eighth Circuit.
____________________________________
/s/ Michael E. Gans

App. 57

APPENDIX D
UNITED STATES COURT OF APPEALS
FOR THE EIGHTH CIRCUIT
[Filed June 4, 2019]
No: 18-1006
__________________________________________
Augustine Pacheco and Vicki Hansen,
)
for themselves and others similarly-situated )
)
Appellees
)
)
v.
)
)
Honeywell International Inc.
)
)
Appellant
)
_________________________________________ )
No: 18-1294
__________________________________________
Augustine Pacheco and Vicki Hansen,
)
for themselves and others similarly-situated )
)
Appellees
)
)
v.
)
)
Honeywell International Inc.
)
)
Appellant
)
_________________________________________ )

App. 58
__________________________________________
Appeal from U.S. District Court for the
District of Minnesota - Minneapolis
(0:17-cv-05048-SRN)
(0:17-cv-05048-SRN)
__________________________________________
ORDER
Appellees’ motion to stay the mandate has been
considered by the court and is denied.
June 04, 2019
Order Entered at the Direction of the Court:
Clerk, U.S. Court of Appeals, Eighth Circuit.
_________________________________________
/s/ Michael E. Gans

App. 59

APPENDIX E
UNITED STATES COURT OF APPEALS FOR
THE EIGHTH CIRCUIT
[Filed June 5, 2019]
No: 18-1006
__________________________________________
Augustine Pacheco and Vicki Hansen,
)
for themselves and others similarly-situated )
)
Appellees
)
)
v.
)
)
Honeywell International Inc.
)
)
Appellant
)
_________________________________________ )
No: 18-1294
__________________________________________
Augustine Pacheco and Vicki Hansen,
)
for themselves and others similarly-situated )
)
Appellees
)
)
v.
)
)
Honeywell International Inc.
)
)
Appellant
)
_________________________________________ )

App. 60
__________________________________________
Appeal from U.S. District Court for the
District of Minnesota - Minneapolis
(0:17-cv-05048-SRN)
(0:17-cv-05048-SRN)
__________________________________________
MANDATE
In accordance with the opinion and judgment of
03/21/2019, and pursuant to the provisions of Federal
Rule of Appellate Procedure 41(a), the formal mandate
is hereby issued in the above-styled matters.
June 05, 2019
Clerk, U.S. Court of Appeals, Eighth Circuit

App. 61

APPENDIX F
EXHIBIT 18
[Filed December 12, 2017]
VICKI HANSEN DECLARATION
1.
I am a plaintiff and class representative in
Augustine Pacheco and Vicki Hansen v. Honeywell
International Inc., U.S.D.C., District of Minnesota,
no. 17-cv-5048 (Judge Susan Richard Nelson). As
detailed in our complaint (R1), Augie Pacheco and I sue
to enforce Honeywell’s promises of pre-65 retiree
healthcare. Honeywell plans to end retiree healthcare
in January 2018 for more than 320 retirees. These
retirees retired from Honeywell facilities in Minnesota.
2.
I started working at age 20 for Honeywell in
1977. While working at Honeywell, I was represented
by Teamsters Local 1145 in the production and
maintenance unit. I was on the Teamsters bargaining
committee for the 2007 collective bargaining agreement
(“CBA”). I was a full-time union steward from about
2003 to 2008.
3.
For decades, Honeywell has promised
healthcare until age 65 to Minnesota retirees taking
early retirement. Minnesota employees can take
(1) “normal retirement” at age 65 or older or (2) early
retirement between the ages 55 and 64. Honeywell
currently provides family healthcare for about 320
former Minnesota employees who took early retirement

App. 62
under either the 2007 or the 2010 collective bargaining
agreement (“CBA”).
4.
In January 2013, I retired at age 55. I gave
up my job and took a reduced pension to make sure
that my husband and I had Honeywell-sponsored
healthcare until age 65. I earned my pension and
retiree healthcare by working more than 35 years for
Honeywell. I will be 65 in September 2022. My
husband will be 65 in 2021.
5.
The 2010 CBA was the last CBA that
promised healthcare to retiring employees. In the fall
of 2010, coworker Kathleen Hahn and I met with
Honeywell Labor Relations Manager Chuck Bengtson
and Honeywell Human Resource Director Dave Hanson
about retiree healthcare. Hahn told them she was
thinking about taking early retirement in order to keep
her healthcare. Ms. Hahn asked them for assurances
that we would be guaranteed healthcare to age 65 if we
took early retirement. Ms. Hahn said she was ready to
turn in her retirement papers but would only do so if
Honeywell assured her of healthcare until age 65.
Bengtson said healthcare is guaranteed for employees
who followed the special retirement process, which
required the retiring employees to provide Honeywell
four months’ written notice of retirement before
February 1, 2013. Mr. Bengtson said once the employee
retired, Honeywell could not end healthcare until the
retiree turns 65. Mr. Bengtson said the 2010 CBA was
our last chance to retire with healthcare. He assured us
that retiree healthcare would continue until age 65 and
it could not be ended by Honeywell before we turned
65. After this discussion, Ms. Hahn turned in her

App. 63
retirement papers and retired with healthcare about
four months later.
6.
To make sure I would get retiree healthcare
for myself and my husband, I gave up my job and
retired in January 2013. I would not have retired if
Honeywell told me my healthcare could end before age
65. More than 300 other Minnesota employees—about
one-third of the Teamsters’ unit—also took early
retirement during the 2010 CBA.
7.
Honeywell’s plan to end our healthcare
breaks its promises to Minnesota retirees. My husband
and I depend on Honeywell healthcare. Replacement
healthcare is very expensive. A Blue Plus Metro MN
plan, for example, that is comparable would cost $2,171
a month for my husband and me. The Blue Plus Metro
MN plan has a $900 per person deductible with an outof-pocket maximum of $6,500 per person. Under the
Honeywell plan, we only have a $200 per person
deductible with an out-of-pocket maximum of $2,000
per person.
8.
My monthly Honeywell pension check is
$2,926. If I were to pay $2,171 a month for the Blue
Plus Metro MN plan, I will have about $400 (after
taxes) left of my monthly pension to pay the
deductibles and living expenses and other necessities.
I have limited savings and no 401(k). My husband is
self-employed, has no employment benefits, and no
pension or 401(k). Still, we do not qualify for any state
healthcare subsidy.
9.
If Honeywell ends our healthcare, our quality
of life will suffer and our financial situation will get

App. 64
worse. The loss of healthcare and potential financial
disaster is causing us anxiety and stress. My husband
has a health condition requiring an expensive drug,
Humira. This drug, as I understand it, would cost
about $4,645 a month if we do not have insurance. My
husband takes other prescription drugs. If we lose our
Honeywell healthcare, we will have to limit our medical
treatment. We will have to choose between healthcare
and other necessities.
10.
I have talked with other Minnesota retirees
and spouses over the past few months. They are very
worried about losing their Honeywell healthcare. Many
retirees are worse off than my husband and I and have
serious healthcare problems and have never had to
purchase individual medical insurance. Like me, other
Minnesota retirees live on a modest pension and
retired early because Honeywell had promise to provide
our healthcare until age 65.
11.
Exhibits 1-9, 11-13, and 16-17 to our motion
for a preliminary injunction are the CBA excerpts,
letter agreements, Honeywell handouts, and notices
that we got from Honeywell, the Teamsters or
Minnesota retirees.
Pursuant to 28 U.S.C. §1746, I declare under the
penalty of perjury under the laws of the United States
of America that the foregoing is true and correct to the
best of my information and belief.
_/s/ Vicki Hansen__
Vicki Hansen
December 12, 2017

